HHS/OIG, Audit -"Review of Missouri's Retroactive Family Planning Claim,"(A-07-04-01012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri's Retroactive Family Planning Claim," (A-07-04-01012)
April 8, 2005
Complete
Text of Report is available in PDF format (321 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Missouri's retroactive claim for enhanced Federal reimbursement
for Medicaid family planning expenditures complied with Federal regulations.  Missouri's retroactive
claim did not fully comply with Federal regulations, which generally limit reimbursement of State expenditures
to claims filed within 2 years of the expenditure. Of the $11.1 million claimed, $6,467,583 did not
meet this limitation and therefore was unallowable. We recommended that Missouri refund $6,467,583
to the Federal Government and ensure that future retroactive claims submitted for Medicaid reimbursement
comply with Federal regulations. Missouri did not agree that its retroactive claim was subject to the
2-year rule. Missouri also said that it already had internal controls to claim appropriate costs.